            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




AMERICAN RECOVERY AND REINVESTMENT ACT
                OF 2009
  FUNDS USED FOR HEALTH INFORMATION
        TECHNOLOGY CONTRACTS

       July 2012    A-15-11-11199




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      July 19, 2012                                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   American Recovery and Reinvestment Act of 2009 Funds Used for Health Information
           Technology Contracts (A-15-11-11199)


           OBJECTIVE
           Our objectives were to determine whether (1) the Social Security Administration (SSA)
           properly accounted for American Recovery and Reinvestment Act of 2009 (Recovery
           Act) funds, (2) SSA achieved its objective of requesting and receiving medical
           information through health information technology (HIT), (3) the contractors complied
           with the contract terms and applicable regulations, and (4) SSA personnel properly
           monitored the contracts.

           BACKGROUND
           On February 17, 2009, the President signed the Recovery Act into law. 1 The Recovery
           Act was designed to save and create jobs as well as cushion the economic downturn
           and make crucial public investments. 2 SSA has used Recovery Act 3 funds in
           developing the HIT process. 4




           1
               Pub. L. No. 111-5, 123 Stat. 115 (2009).
           2
            Executive Office of The President, Council of Economic Advisers, Estimates of Job Creation from the
           American Recovery and Reinvestment Act of 2009, May 2009.
           3
            The Recovery Act reporting requirements of job creation or job maintenance were not included as part
           of this audit.
           4
             The Recovery Act provided SSA with “$500,000,000 for processing disability and retirement workloads,
           including information technology acquisitions and research in support of such activities: Provided, That up
           to $40,000,000 may be used by the Commissioner of Social Security for health information technology
           research and activities to facilitate the adoption of electronic medical records in disability claims, including
           the transfer of funds to ‘‘Supplemental Security Income Program’’ to carry out activities under section
           1110 of the Social Security Act.” Pub. L. No. 111-5, 123 Stat. 115, 185-186 (2009).
Page 2 - The Commissioner


Processing disability applications has become significantly difficult because of increased
volume, the complexity of applications, outdated policies and procedures, and limited
resources. One way SSA is meeting this challenge is by partnering with medical
providers to request and receive medical information in a standardized electronic data
format through HIT. The goal of this effort is a more efficient and effective medical
evidence gathering process to support the decisionmaking process for disability claims.

SSA awarded 15 HIT contracts with Recovery Act funds. In an earlier audit, we
evaluated the performance of 1 of the 15 contracts. 5 For this review, we selected four
contracts. In February 2010, SSA awarded firm-fixed-price contracts to Central Virginia
Health Network/MedVirginia (MedVA), Douglas County Individual Practice Association
(DCIPA), EHR Doctors Inc. (EHRDOC), and CareSpark, Inc. (CareSpark). The purpose
of these contracts was to expand the number of healthcare providers participating in the
Nationwide Health Information Network. This will allow providers to receive a
standardized electronic request for medical records along with a patient’s authorization.
Medical providers will then be able to automatically respond to SSA requests with
structured medical information.

RESULTS OF REVIEW
We found that SSA properly accounted for Recovery Act funds. We reviewed the
contract award amounts and SSA payments to the contractors. With the exception of
the CareSpark contract, which SSA terminated, we found the payments equaled the
award amounts.

Additionally, we reviewed SSA documentation, which indicated the contractors achieved
the objective of requesting and receiving medical information through HIT. We found
the contractors completed the contract requirements as described in the contract
statement of work, with the exception of CareSpark. Our review also found the
contractors complied with the contract terms. We reviewed the information provided by
the contracting officer technical representative, in the Office of the Deputy
Commissioner for Systems, and assigned Division of Disability Health Information
Services implementation staff to ensure there was proper oversight of the HIT
contractors’ work activity. We found that SSA staff required stakeholders involved in the
HIT process review and approve achieved contract milestones, which ensured the
process was adequate for all staff who works with HIT. Therefore, it appeared that SSA
personnel properly monitored the contracts.

HIT Contract Success Tied to Achievement of HIT Process Milestones

We found that three of the four HIT contractors were successful in meeting contract-
prescribed milestones, which, when completed, represented a level of performance.
Each contract described the progress necessary to achieve three milestones. The three
contract milestones as presented in the contract addendum follow.
5
 SSA OIG, Recovery Act Exchange Contract with Lovelace Clinic Foundation - Contract SS00-10-60030
(A-15-11-11157), October 13, 2011.
Page 3 - The Commissioner


Milestone 1              Submittal and approval of Sample Continuity of Care Document 6; and
                         verified certification of Electronic Health Record application.

Milestone 2              Submittal and approval of Verification Continuity of Care Documents.

Milestone 3              Production submittal of up to 5 percent of expected annual volume,
                         complying with specifications outlined in the Statement of Work.

On successful completion of each milestone, the contractor was paid. However, we did
find that one of the four HIT contractors failed to fulfill the contract requirements and
was terminated at the Government’s convenience. The contract award amounts and
payments, as well as the unused obligation balance, are as follows.

                                  Sum m ary of Audited HIT Contract Aw ards and Paym ents

                                                        Aw ard/
    HIT Contractor and                                 Obligation        Contract      Paym ent          Unused
         Contract#                     Aw ard Date      Am ount         Milestone*     Am ounts         Obligation

MED Virginia                               2/1/2010       $1,138,603       1st             $170,790
SS00-10-60033                                                              2nd              284,651
                                                                           3rd              683,162
                          total                           $1,138,603                     $1,138,603               $0

EHR Doctors                               1/31/2010       $1,000,000       1st              $112,500
SS00-10-60029             **Mod 1         9/16/2010        ($250,000)      2nd               187,500
                                                                           3rd               450,000
                          total                            $750,000                         $750,000              $0

Douglas County IPA                        2/1/2010         $502,310        1st               $75,347
SS00-10-60035                                                              2nd               125,578
(Total dollar difference due to rounding)                                  3rd               301,386
                          total                            $502,310                         $502,311              ($1)

CareSpark, Inc                             2/1/2010       $1,363,277      ***none                  0
SS00-10-60036             total                           $1,363,277                               0      $1,363,277

* Payment is based on percentage of contract on achieved milestone (1st = 15% of contract, 2nd = 25%, 3rd (final)=60%)
**Modification 000001 - contract amount reduced to $750,000 resulting from change in EHRDOC medical provider
***CareSpark never achieved a milestone. The contract w as terminated at the government's convenience on 03/14/2011




6
  The Continuity of Care Document “… permits creation of flexible documents that contain the most
relevant and timely core health information about a patient, and to send these electronically from one care
giver to another. It contains various sections such as patient demographics, insurance information,
diagnosis and problem list, medications, allergies, and care plan.”
Page 4 - The Commissioner


Termination of the CareSpark, HIT Contract

CareSpark did not meet the contract’s terms because of its inability to process medical
documents, as required by the contract. As a result, CareSpark failed to qualify for its
initial milestone payment, and SSA terminated the contract 7 after several attempts to
resolve the problems. The contract includes a provision that states if progress for
payment is not achieved within the specified timeframe, SSA can terminate the contract
for the Government’s convenience. As of the end of our fieldwork, CareSpark and SSA
had not settled on the termination amount representing a percentage of work
completed. Therefore, we could not determine the status of the termination amount for
CareSpark. Once CareSpark and SSA finalize the termination amount, SSA can
deobligate the difference between the termination amount and original award of
$1,363,277.

Subsequent to our review, we were informed by SSA that on May 22, 2012, the
contracting officer issued his final decision on CareSpark’s claim regarding the Agency’s
termination for convenience of CareSpark’s contract. The Agency offered a total
settlement amount of $301,288.27. CareSpark has 90 days to appeal the decision to
the Civilian Board of Contract Appeals or 12 months to bring an action in the U.S. Court
of Federal Claims.

CONCLUSION
We found that, of the four contracts reviewed, SSA used Recover Act funds for three of
them. The fourth contract, with CareSpark, did not achieve the required milestones.
SSA terminated the contract at the Government’s convenience. Subject to the Office of
Acquisition and Grants resolution of this issue with CareSpark, any unused CareSpark
award funds can be deobligated. However, at this time, we cannot determine the
amount of payment for CareSpark and, therefore, are making no recommendation on
the disposition of the funds.

AGENCY COMMENTS
SSA had no comments (see Appendix C for a copy of the email response).




                                                  Patrick P. O’Carroll, Jr.



7
  Federal Acquisition Regulation, 48 C.F.R. § 52.212-4(l), relating to Termination for the Government’s
Convenience, provides, in part, that “Subject to the terms of this contract, the Contractor shall be paid a
percentage of the contract price reflecting the percentage of the work performed prior to the notice of
termination, plus reasonable charges the Contractor can demonstrate to the satisfaction of the
Government using its standard record keeping system, have resulted from the termination…”
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
CareSpark      CareSpark, Inc.
COTR           Contracting Officer Technical Representative
DCIPA          Douglas County Individual Practice Association
EHRDOC         EHR Doctors, Inc.
HIT            Health Information Technology
MedVA          Central Virginia Health Network/MedVirginia
OAG            Office of Acquisition and Grants
OIG            Office of the Inspector General
Pub. L. No.    Public Law Number
Recovery Act   American Recovery and Reinvestment Act of 2009
SSA            Social Security Administration
                                                                          Appendix B

Scope and Methodology
To accomplish our objectives, we reviewed four Social Security Administration (SSA)
health information technology (HIT) contracts:

    •   EHR Doctors, Inc., #SS00-10-60029,
    •   Central Virginia Health Network\ also known as Med Virginia #SS00-10-60033,
    •   Douglas County Individual Practice Association #SS00-10-60035, and
    •   CareSpark, Inc., #SS00-10-60036

Each contract includes a Statement of Work, which indicates the services the contractor
is to perform. Based on our review of the Statement of Work, we determined each
contractor’s requirements and SSA’s responsibilities. We obtained and reviewed
supporting documentation and conducted necessary interviews with SSA staff
concerning the contract requirements performed. To meet the contract’s objectives,
each contractor was required to complete the performance of three milestones. In
addition, the contractors’ payment was based on achieving each milestone. The
milestones, as listed in the contract Price of Services of each contractor, are indicated
below.

Milestone                     Milestone Performance                        Contractor
Number                                                                     Payment
              Submittal and approval of Sample Continuity of Care
                                                                           15 Percent of
0001          Document; and verified certification of Electronic Health
                                                                           Contract Award
              Record application
              Submittal and approval of Verification Continuity of Care    25 Percent of
0002
              Documents                                                    Contract Award
              Production submittal of up to 5 percent of expected
                                                                           60 Percent of
0003          annual volume, complying with specifications outlined in
                                                                           Contract Award
              the Statement of Work.

In addition to reviewing the contract performance, we:

•   Reviewed the applicable Federal Acquisition Regulation, SSA Administrative
    Instructions Manual System, and Code of Federal Regulations over Prompt
    Payment.

•   Reviewed the process related to contracts for the Office of Acquisition and Grants
    (OAG) and the Division of Disability Health Information Systems.



                                           B-1
•     Gained an understanding of the responsibilities of the Contracting Officer and
      Contracting Officer Technical Representative (COTR).

•     Obtained an understanding of, and assessed, internal controls.

•     Reviewed supporting documentation of the COTR’s review and approval of the
      contractor’s invoices and the payments made by SSA’s finance office. Tested for
      compliance with the Prompt Payment Act. 1

•     For CareSpark, Inc., we reviewed documentation related to a termination of the HIT
      contract at the Government’s convenience.

•     As required by the Federal Information Security Management Act of 2002, we
      reviewed documentation of verification of security awareness training by the
      contractor staff communicated to the OAG.

We performed our audit at SSA Headquarters in Baltimore, Maryland. We conducted
our audit from September 2011 through February 2012. We found the data used for
this audit were sufficiently reliable to meet our objectives. The entities audited were the
Offices of the Deputy Commissioner for Systems and the Deputy Commissioner for
Budget, Finance and Management.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our objectives.




1
    Pub. L. No. 97-177, 96 Stat. 85 (1982).


                                              B-2
                                                                        Appendix C

Agency Comments


June 27, 2012

Subject: Audit No. 22011092 (A-15-11-11199) - OIG Draft Report, "American Recovery and
Reinvestment Act of 2009 Funds Used for Health Information Technology Contracts"


Thank you for the opportunity to review the “American Recovery and Reinvestment Act of 2009
Funds Used for Health Information Technology Contracts” draft report. We have no comment.

Tina M. Waddell
Assistant Deputy Commissioner
for Budget, Finance and Management
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Mark Meehan, Audit Manager

Acknowledgments

In addition to those named above:

   Sigmund Wisowaty, Auditor-In-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-15-11-11199.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
